No. 20A167
CAPITAL CASE
IN THE SUPREME COURT OF THE UNITED STATES
STATE OF OKLAHOMA, Applicant,
-vsBENJAMIN ROBERT COLE, Respondent.
To the Honorable Neil M. Gorsuch,
Associate Justice of the United States Supreme Court and
Circuit Justice for the Tenth Circuit
CERTIFICATE OF SERVICE
SARA HILL
Attorney General
CHRISSI ROSS NIMMO
Deputy Attorney General
CHEROKEE NATION
Post Office Box 1533
Tahlequah, Oklahoma 74465-1533
Phone: (918) 458-6998
chrissi-nimmo@cherokee.org

FRANK S. HOLLEMAN, IV
Counsel of Record
DOUGLAS B. L. ENDRESON
SONOSKY, CHAMBERS, SACHSE,
ENDRESON & PERRY, LLP
1425 K Street, NW, Suite 600
Washington, DC 20005
Phone: (202) 682-0240
fholleman@sonosky.com
dendreson@sonosky.com

Attorneys for Amicus Curiae Cherokee Nation
May 28, 2021

I, Frank S. Holleman, IV, a member of the Bar of this Court, hereby certify
that on this 28th day of May 2021, I caused to be served one original and two copies
of the MOTION FOR LEAVE TO FILE AMICUS CURIAE BRIEF AND AMICUS
CURIAE BRIEF OF THE CHEROKEE NATION to this Court and sent a courtesy
copy via first-class mail, postage pre-paid, to the following:
Mike Hunter
Attorney General
Mithun Mansinghani
Solicitor General
Jennifer L. Crabb
Caroline E.J. Hunt
Assistant Attorneys General
313 NE Twenty-First St.
Oklahoma City, OK 73105
Respectfully submitted,
Frank S. Holleman, IV
SONOSKY, CHAMBERS, SACHSE,
ENDRESON & PERRY, LLP
1425 K St NW, Suite 600
Washington, DC 20005
fholleman@sonosky.com
(202) 682-0240

2

